                        DEP.lliTMENT OF HEALTH 1.\.:' W Hcl\!1 ,\.'\1 SERYIC:E~


                  ()FFICE OF INSPECTOR GENERAL
                                            '.IASHI'iGTOO., DC 20201




                                             SEP 2 7 2012


TO: 	              Marilyn Tavenner
                   Acting Administrator
                   Centers for Medicare & Medicaid Services

                                     /S/
FROM:              Stuart Wright
                   Deputy Inspector General
                      for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Excluded Individuals Employed by Service
           Providers in Medicaid Managed Care Networks, OEI-07-09-00632


This memorandum report provides information about Office of Inspector General
(OIG)-excluded individuals who were employed by service providers participating in
12 Medicaid managed care entities' (MCE) provider networks in 2011. In addition, it
provides information on the safeguards in place to prevent excluded individuals from
being employed by providers in those networks.

SUMMARY

OIG is authorized to exclude certain individuals and entities (providers) from
participating in federally funded health care programs, including Medicaid. Federal
programs are prohibited from paying for any items or services furnished, ordered, or
prescribed by an excluded provider. Managed care plans and their network providers
may not employ or contract with an excluded individual to provide items or services paid
for.by Medicaid. Nationally, approximately 70 percent of Medicaid beneficiaries receive
some or all of their Medicaid services through managed care.

To determine whether excluded providers are present in Medicaid managed care provider
networks, OIG has conducted two evaluations; this is the second of the two evaluations.
In the prior study, entitled Excluded Providers in Medicaid Managed Care Entities
(OEI-07-09-00630), 1 we identified 11 excluded providers out of approximately


1
  We use the term "managed care entity" to refer to managed care organizations (MCOs), prepaid inpatient
health plans, and prepaid ambulatory health plans. Readers should not confuse this abbreviated term with the
statutory definition of managed care entity which only refers to MCOs and primary care case management
Page 2 – Marilyn Tavenner


277,000 providers checked. 2 In the current study, we identified 16 excluded individuals
out of approximately 249,000 individuals employed by 500 sampled providers. Nine of
these excluded individuals were in occupations that provided direct patient care.
Contributing to the employment of these excluded individuals were gaps in information
available on excluded individuals and failure of contracted staffing agencies and
background check vendors to follow procedures. Most providers reported using a variety
of safeguards to ensure that they do not employ excluded individuals, but identified costs
and resource burdens as challenges in executing those safeguards. Seven percent of
providers enrolled in the selected Medicaid MCEs reported that they do not check the
exclusion status of their employees.

BACKGROUND

Office of Inspector General Exclusions
To protect patients and Federal health care programs, OIG has been delegated authority
from the Secretary of Health and Human Services (the Secretary) to exclude certain
providers (e.g., doctors, physician group practices, transportation companies, hospitals,
and home health agencies) from participating in Medicaid and other federally funded
health care programs. 3 These Federal programs are generally prohibited from paying for
any items or services furnished, ordered, or prescribed by an excluded provider.
Managed care plans and their network providers may not employ or contract with an
excluded individual to provide items or services paid for by Medicaid. OIG excludes
providers from participation in these programs through legal authorities contained in
sections 1128, 1128A, 1156, and 1867 of the SSA. Some common reasons for exclusion
include convictions for program-related fraud and patient abuse, and licensing board
actions, such as the suspension or revocation of a medical license due to concerns about
the licensed individual’s professional competence or performance.

In addition to prohibiting Federal payment, the SSA authorizes the imposition of civil
monetary penalties against health care providers and entities, including MCEs, that
arrange or contract with an individual or entity to provide federally reimbursed items or
services that they know or should know were excluded from participation in Federal
health care programs. 4 Under these authorities, MCEs, hospitals, nursing homes,
hospices, group medical practices, and other health care providers may face civil
monetary penalties if they employ or contract with an excluded individual to provide,
directly or indirectly, items or services paid for with Federal funds.

Types and Duration of Exclusions. Exclusions are either mandatory or permissive.
Although mandatory exclusions are required by law, permissive exclusions are imposed

programs. See section 1932(a)(1)(B) of the Social Security Act (SSA). CMS has included prepaid partial-risk
entities under managed care regulations at 42 CFR part 438.
2
  OIG, Excluded Providers in Medicaid Managed Care Entities (OEI-07-09-00630), February 2012. The
evaluation examined a variety of provider types including businesses and individual providers.
3
  Federally funded health care programs include Medicare and all other plans and programs that provide health
benefits funded directly or indirectly by the United States (other than the Federal Employees Health Benefits
Plan) or any State health care program, including Medicaid. SSA § 1128B(f); 42 CFR § 1001.2.
4
  SSA § 1128A(a)(6).


Excluded Individuals Employed By Medicaid Managed Care Providers (OEI-07-09-00632)
Page 3 – Marilyn Tavenner


at OIG’s discretion. 5 For example, a provider convicted of a program-related crime must
be excluded; a provider who failed to disclose required information may be excluded, as
determined by OIG.

The minimum duration of an exclusion may be fixed by law or at the discretion of OIG.
Exclusions can be time-limited or permanent. If an excluded provider whose minimum
period of exclusion has expired wishes to participate in Federal health care programs, the
provider must apply for reinstatement and OIG must approve the applicant. 6

Exceptions to the payment prohibition. Limited exceptions exist that allow excluded
providers to be paid for certain services (e.g., emergency services). 7 Additionally, States
can request that the Secretary approve waivers allowing excluded providers, such as
providers in medically underserved areas, to be paid. 8

Sources of Exclusion Information. OIG maintains a list of all currently excluded parties
called the List of Excluded Individuals/Entities (LEIE), which is publically available on
the OIG Web site for search or download. 9 OIG updates the LEIE on a monthly basis to
add new exclusions and reinstatements. OIG recommends that providers rely primarily
on the LEIE for the most accurate and timely information on Federal exclusions. OIG
sends monthly updates of exclusions information to the Centers for Medicare & Medicaid
Services (CMS). CMS then uses the updates to populate the Medicare Exclusions
Database, which is available to State Medicaid agencies and other stakeholders. OIG
also sends monthly updates of the LEIE to the General Services Administration, which
maintains the Excluded Parties List System. 10 The Excluded Parties List System includes
information regarding parties debarred, suspended, proposed for debarment, excluded, or
otherwise disqualified from receiving Federal funds. Another source of exclusions
information is State sanctions and licensure databases. States have authority to exclude

5
  SSA §§ 1128(a) and (b); 42 U.S.C. 1320a-7(a) and (b).
6
  SSA § 1128(g); 42 U.S.C. 1320a-7(g); 42 CFR § 1001.3001.
7
  42 CFR § 1001.1901(c) establishes limited exceptions allowing payment of certain services provided by
excluded providers. Payments may be made for up to 30 days after the effective date of an exclusion for:
inpatient institutional services furnished to an individual who was admitted to an excluded institution before the
date of the exclusion; home health services and hospice care under a plan of care established before the effective
date of the exclusion; and any health care items that are ordered from an excluded manufacturer before the
effective date of the exclusion. Claims for items or services ordered or prescribed by an excluded individual can
be paid for dates of service up to 15 days after the notice of the exclusion was mailed to the supplier. Finally,
claims for certain emergency items or services furnished by an excluded provider, or at the medical direction or
on the prescription of an excluded physician or other authorized individual during the period of exclusion can be
paid. To be payable, such a claim must be accompanied by a sworn statement of the person furnishing the items
or services specifying the nature of the emergency and why the items or services could not have been furnished
by an eligible provider.
8
  Section 1128(d)(3)(B)(i) of the Act; 42 U.S.C. 1320a-7(d)(3)(B)(i) allows States to request waivers for certain
excluded providers.
9
  When searching the LEIE online, users can enter only five names at a time. For larger entities such as hospitals
that may need to check many names at a time, OIG provides a downloadable LEIE database that can reduce
administrative time by checking multiple names against the full LEIE data base. See
http://www.oig.hhs.gov/exclusions/exclusions_list.asp.
10
   In late July 2012, the Excluded Parties List System was migrated to the System for Award Management,
which combines several Federal procurement systems.


Excluded Individuals Employed By Medicaid Managed Care Providers (OEI-07-09-00632)
Page 4 – Marilyn Tavenner


providers from their Medicaid programs. 11 Many States maintain a database—often
called a State sanctions list—of providers that they have excluded. State sanctions lists
may also include OIG-excluded providers. Many States also maintain databases of
providers to whom they have issued licenses; if a provider loses his or her license
because of exclusion, either by OIG or by a State, the licensure database reflects that
status.

State Medicaid Programs
Medicaid is financed jointly by the Federal and State governments. Although each State
Medicaid program must operate within the parameters of broad Federal requirements,
each State program is unique in structure and administration. States use two primary
delivery systems to provide Medicaid-covered services: managed care and
fee-for-service. Approximately 70 percent of Medicaid recipients receive some or all of
their Medicaid services through managed care. 12

MCEs are responsible for contracting with and paying individual providers and/or
provider entities for the services they render to Medicaid recipients enrolled in a managed
care plan. Under a risk contract with the State, the MCE assumes the financial risk for
the cost of the services covered under the contract and incurs loss if the cost of the
services exceeds the payments under the contract. 13

CMS Guidance to State Medicaid Agencies Regarding Screening Employees
A State Medicaid Director letter dated January 16, 2009, advised States of their
obligation to direct providers to screen their employees and contractors for excluded
persons to prevent Medicaid payments for items or services furnished or ordered by
excluded individuals and entities. It further advised States to require that providers
search OIG’s LEIE database monthly to capture new exclusions or reinstatements that
have occurred since the last search.

Previous OIG Work
In a 2011 evaluation regarding 12 selected MCEs in 10 States, we found that 4 MCEs
reviewed had 11 excluded providers enrolled in their provider networks in 2009. 14
Four of these providers were paid a total of $40,306 in 2009; the remaining
seven providers received no payments during the review period. All 12 MCEs and all
10 States reviewed had safeguards to identify excluded providers; however, gaps in
provider credentialing processes and LEIE information contributed to the enrollment of
excluded providers. Eleven of the twelve selected MCEs reported that they checked the

11
   Under § 1902(p)(1) of the SSA (42 U.S.C. 1396a(p)(1)), a State may exclude a provider from the State
Medicaid program for any reason that OIG could exclude a provider from Federal health care programs.
12
   Beginning in 1981, Federal law allowed States to seek a waiver of Federal requirements to permit a State to
require that Medicaid recipients enroll in managed care, usually under § 1915(b) or the demonstration authority
at § 1115 of the Social Security Act. In 1997, Congress amended the Medicaid statute to permit States to require
enrollment in MCEs for most recipients as a State plan option without seeking a waiver. SSA § 1932; see 67
Fed. Reg. 40989 (June 14, 2002) for an overview of Medicaid managed care laws.
13
   42 CFR § 438.2.
14
   OIG, Excluded Providers in Medicaid Managed Care Entities (OEI-07-09-00630), February 2012.


Excluded Individuals Employed By Medicaid Managed Care Providers (OEI-07-09-00632)
Page 5 – Marilyn Tavenner


LEIE to identify excluded providers. All MCEs checked providers’ exclusion status at
initial enrollment and rechecked them at varying frequencies ranging from monthly to
every 3 years.

METHODOLOGY

In the first evaluation, entitled Excluded Providers in Medicaid Managed Care Entities
(OEI-07-09-00630), we compared the provider networks of 12 selected Medicaid MCEs
to the LEIE to identify whether excluded providers (i.e., individuals and entities, such as
physicians, nurse practitioners, physician groups, community mental health centers) were
present. There were approximately 675 MCEs participating in Medicaid in 2009; the
beneficiaries enrolled in the 12 selected MCEs represented 16 percent of national
Medicaid managed care enrollment in 2009. Overall, 277,835 providers were enrolled in
the provider networks of the 12 MCEs.

For this evaluation, we limited the provider population of the 12 MCEs to only hospitals,
nursing facilities, home health agencies, and pharmacies. A total of 63,606 providers of
these four types were enrolled in the provider networks of the 12 MCEs. We then
stratified the population by these provider types, and selected a stratified random sample
of 500 providers. Table 1 shows the total providers of each type in the population and
sample, and the employees of the sampled providers.

Table 1: Population and Sampled Providers and Employees by Strata
                                          Population                                         Sample
 Stratum                              Number of Providers             Number of Providers              Number of Employees
 Hospitals                                                971                             125                      178,489
 Nursing Facilities                                       272                             125                       38,883
 Home Health Agencies                                     507                             125                       27,986
 Pharmacies                                           61,856                              125                        3,511
     Total in Strata                                  63,606                              500                      248,869
Source: OIG analysis of MCE provider network data and employee rosters from sampled providers, 2012.


We requested from each sampled provider a roster of all of its employees in calendar year
2011, including any contracted employees. 15 A total of 248,869 employees were listed
on the rosters we received. We compared the contents of the rosters to the LEIE to
identify any excluded individuals among the sampled providers’ employees. 16 We also
asked each sampled provider to complete a survey on the safeguards that it used to ensure
that excluded individuals are not employed.




15
   Some providers in our sample had contracts with outside companies to provide staff for their businesses; the
individuals we call “contracted employees” were employed by the outside companies, but performed services for
the providers in our sample.
16
   Our comparison did not include providers excluded by States or listed on the Excluded Parties List System
that are not included on the LEIE.


Excluded Individuals Employed By Medicaid Managed Care Providers (OEI-07-09-00632)
Page 6 – Marilyn Tavenner


During data collection, 19 of the 500 sampled providers were determined to be ineligible
for inclusion in our evaluation, either because they went out of business prior to
January 1, 2011, or because they were not actually enrolled in one of the selected
Medicaid MCEs during our review period. As a result, the potential number of responses
we expected to receive from providers was 481. We received 472 rosters, a roster
response rate of 98 percent, and 467 surveys, a survey response rate of 97 percent.

Due to the low number of excluded individuals identified in the sample, our findings
about excluded individuals present sample counts and are not projected to the population.
Except where noted, our findings regarding the survey of providers present projections to
the population of 63,606 hospitals, nursing facilities, home health agencies, and
pharmacies enrolled in the networks of the 12 MCEs. The findings regarding the
provider survey are based on self-reported information; we did not independently verify
responses.

This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Sixteen Excluded Individuals Were Employed By Sampled Providers Enrolled in
the 12 Selected Medicaid MCEs

Of the 248,869 individuals listed on the employee rosters requested from sampled
providers, we identified 16 excluded individuals among the employees of 14 sampled
providers. Of the 16 excluded individuals we identified, 9 were employed in occupations
that provided direct patient care. The remaining seven excluded individuals were
employed in occupations that did not involve providing direct patient care. See Table 2
for details on the occupations of the 16 excluded individuals.

Our evaluation included only providers enrolled in 12 of the approximately 675 Medicaid
MCEs in operation in 2009; 17 additional excluded individuals may be employed by
providers enrolled in the 663 MCEs not included in this study.




17
   The beneficiaries enrolled in the 12 selected MCEs represented 16 percent of national Medicaid managed care
enrollment in 2009.


Excluded Individuals Employed By Medicaid Managed Care Providers (OEI-07-09-00632)
Page 7 – Marilyn Tavenner


Table 2: Occupations of 16 Excluded Individuals Identified
                                                      Employer Provider                  Number of Excluded                 Patient Contact
 Occupation
                                                                  Type                           Individuals                         Level*

                                                            Nursing Facility                                     4        Direct patient care
 Registered Nurse/Licensed Practical
 Nurse
                                                                    Hospital                                     1        Direct patient care

 Personal Care Attendant/Certified
                                                     Home Health Agency                                        3**        Direct patient care
 Nurse Aide

 Nurse Supervisor                                           Nursing Facility                                     3    No direct patient care

 Chaplain                                                           Hospital                                     1    No direct patient care

 Clinical Technician                                                Hospital                                     1    No direct patient care

 Collector (Business Office)                                        Hospital                                     1    No direct patient care

 Instrument Technician                                              Hospital                                     1    No direct patient care

*We defined “direct patient care” to mean that the individual’s primary function is to provide medical or personal care to patients.

**There were 4 excluded individuals identified as personal care attendants among the 16 excluded individuals. However, the provider for
which one personal care attendant worked told us that the excluded individual did not actually provide any services during the period of her
employment; although her occupation was one in which she would normally provide direct patient care, she did not serve any clients.

Source: OIG analysis of employee rosters and LEIE, 2012.


We determined the authorities under which each of the 16 excluded individuals were
excluded.
   • Seven individuals were excluded because their licenses had been revoked (Section
       1128(b)(4) of the Act).
   • Five individuals were excluded because of program-related convictions (e.g.,
       fraud against a Federally funded healthcare program, typically Medicare or
       Medicaid) (Section 1128(a)(1) of the Act).
   • Three individuals were excluded because of convictions for patient abuse and/or
       neglect (Section 1128(a)(2) of the Act).
   • One individual was excluded because of a felony conviction of health care fraud
       (fraud against privately funded health insurance) (Section 1128(a)(3) of the Act).

See Appendix A for information on the occupations of the individuals excluded under
each authority.

Fourteen of the excluded individuals identified were directly employed by providers in
our sample; two of the excluded individuals were contracted employees. The
employment of 13 of the 16 excluded individuals was terminated by the conclusion of our
data collection. The termination of 6 of these 13 individuals was a direct result of our
review. 18 Of the three remaining excluded individuals, one was suspended pending the
result of her application to OIG to be reinstated, one was on administrative leave while
the provider for which she worked investigated her situation, and one we were unable to

18
   The employment of the other seven excluded individuals was terminated prior to our review for various
reasons; only one of those seven was terminated because of her exclusion status.


Excluded Individuals Employed By Medicaid Managed Care Providers (OEI-07-09-00632)
Page 8 – Marilyn Tavenner


determine the status of because the provider did not specify whether her employment had
been terminated.

Incorrect names and failure of contractors to follow procedures contributed to the
employment of excluded individuals by sampled providers enrolled in Medicaid
MCEs

The sampled providers who employed the 16 excluded individuals gave the following
explanations about how those individuals became employed despite the safeguards they
had in place.

Incorrect names. The sampled providers that employed 9 of the 16 excluded individuals
explained that the excluded individuals gave names on their employment applications
and/or other documents that were different from the names listed on the LEIE. 19 For
example, one excluded individual was listed on the LEIE under her maiden name, but
gave her married name on her employment documents. In another example, an excluded
individual gave a different first name than she is listed with on the LEIE. OIG provides
tips on the OIG Web site to improve accuracy and increase name verification. 20

We also identified misspellings of two employees’ names as an issue. For example, one
provider entered the excluded individual’s last name incorrectly, including an extra letter,
when searching the LEIE. Because of the misspelling, there was no match.

Contracted staffing agencies not identifying employees’ exclusion status correctly. Two
sampled providers had excluded individuals who were contracted employees. These
providers explained that they required the contracted companies to check the exclusion
status of the employees they provide. However, the contracted companies either did not
check the employees’ exclusion status as required, or did not inform the providers of the
employees’ exclusion status.

Contracted background check vendors not identifying employees’ exclusion status
correctly. Two sampled providers contracted with outside vendors to conduct
background checks on their employees; these background checks were supposed to
include identifying the employees’ exclusion status. However, the contracted vendors
failed to identify the exclusion status of two excluded individuals. No further reason or
explanation for the failures was given.

Other reasons why excluded individuals were employed. One sampled provider searched
the excluded individual’s name on LEIE and a match was identified, but the LEIE listed a
different birth date than the individual provided on her application. Therefore, the
provider concluded that the match was a false positive. A second sampled provider hired
the excluded individual prior to her exclusion date; the individual’s exclusion status was
identified in a later routine periodic check, and her employment was terminated. Finally,

19
    We were able to identify these individuals despite their names on the rosters being different from the names
listed in the LEIE, because we searched the LEIE for their SSNs first and then looked for similar names.
20
    See http://oig.hhs.gov/exclusions/tips.asp.


Excluded Individuals Employed By Medicaid Managed Care Providers (OEI-07-09-00632)
Page 9 – Marilyn Tavenner


one sampled provider explained that the human resources director at the time of the
excluded individual’s hiring simply did not follow company policy to conduct exclusion
status screenings. That human resources director has since been terminated.

Most providers reported using a variety of safeguards to ensure they do not employ
excluded individuals, but identified costs and resource burdens as challenges in
executing those safeguards

Seventy-eight percent of providers indicated that they used the LEIE to check the
exclusion status of their employees. See Table 3 for the databases used and percentages
of providers that used them to check their employees’ exclusion status. See Appendix B
for 95-percent confidence intervals and sample sizes for all estimates presented in this
report.

Table 3: Databases Used To Check Exclusion Status and Percentages of Providers
 Database                                                  Percentage of Providers*

 LEIE                                                                          78.1%

 Excluded Parties List System                                                  51.2%

 State sanctions and licensure databases                                       44.4%

 Medicare Exclusions Database                                                  32.4%
 National Practitioner Data Bank/ Healthcare
                                                                                   2.2%
 Integrity and Protection Data Bank
 *Many providers used more than one database to check their employees’ exclusion
 statues; therefore, the percentages sum to more than 100 percent.
 Source: OIG analysis of provider survey responses, 2012


Seventy-eight percent of providers indicated that they check the exclusion status of their
employees at hire and that they also conduct a periodic check (i.e., monthly, quarterly,
annually). Nine percent of providers reported checking employees’ exclusion status only
at hire; 7 percent of providers reported checking only periodically with no check at hire.
See Table 4 for the percentages of providers that checked their employees’ exclusion
status at different frequencies.




Excluded Individuals Employed By Medicaid Managed Care Providers (OEI-07-09-00632)
Page 10 – Marilyn Tavenner


Table 4: Frequency of Checks of Employees’ Exclusion Status
 Frequency                             Percentage of Providers

 At hire with periodic checks                               77.8%*
     Monthly                                                 41.1%
     Quarterly                                                6.0%
     Annually                                                18.1%
     Other                                                   15.4%
 At hire only                                                 8.6%
 Periodic checks only                                         6.8%
     Monthly                                                  0.9%
     Quarterly                                                1.7%
     Annually                                                 3.3%
     Other                                                    0.9%
 No checks                                                    6.8%
*Some providers conducted multiple periodic checks in addition to
checking at hire. For example, a provider could check an employee’s
exclusion status at hire, monthly, and annually thereafter. In this
example, the provider would be represented in the percentages of
providers conducting both the monthly and annual periodic check. Thus,
the sum of the percentages of providers conducting each periodic check
exceeds the percentage of providers conducting any periodic check.
Source: OIG analysis of provider surveys, 2012


We asked providers what safeguards other than checking the databases listed in Table 3
they used to check their employees’ exclusion status. Forty-two percent of providers
required prospective employees to sign an affidavit or attestation regarding their
exclusion status. Only four sampled providers indicated having a policy requiring
contracted companies (such as staffing agencies) to check the exclusion status of the
employees they supplied to the providers. We did not identify any relationships among
the databases used, the frequency with which the checks are conducted, or the other
safeguards used and the presence of excluded individuals.

Fifty-five percent of providers identified the costs and resource burdens of conducting
exclusion checks as challenges. One sampled provider stated, “It take[s] about 16 hours
to look up every employee in 2 different databases . . . It is very difficult to only be able
to process 1 to 5 employees at a time depending on the database.” 21




21
   This provider was referring to the LEIE and the Excluded Parties List System. The online LEIE allows users
to search up to five names at a time; however, the downloadable version of the LEIE allows users to search
multiple names against the full exclusions list. The Excluded Parties List System allows users to search only one
name at a time.


Excluded Individuals Employed By Medicaid Managed Care Providers (OEI-07-09-00632)
Page 11 – Marilyn Tavenner


Seven Percent of Providers Enrolled in the 12 Selected Medicaid MCEs Do Not
Check the Exclusion Status of Their Employees; Most of These Providers Lacked
Knowledge Regarding Exclusions

Seven percent of providers do not check the exclusion status of their employees. Despite
the vulnerability created by the lack of screening, we found that of the providers in the
sample that did not check their employees’ exclusion status, none employed excluded
individuals. Four percent of providers do not check their employees’ exclusion status
because they lack knowledge about exclusions—they were either unaware that it is
possible to be excluded from participation in federally funded health care programs, or
that employers participating in federally funded health care programs are obligated to
check the exclusion status of their employees. One percent of providers do not check
their employees’ exclusion status because they lack both knowledge about exclusions and
the resources to conduct the checks. 22

CONCLUSION

Sixteen excluded individuals were employed by sampled providers that participate in the
networks of 12 Medicaid MCEs. Of the 16 excluded individuals, 7 were excluded
because their licenses had been revoked; 5 were excluded because of convictions of fraud
against a Federally funded healthcare program; typically Medicare or Medicaid; 3 were
excluded because of convictions for patient abuse and/or neglect; and 1 was excluded
because of a felony conviction of fraud against privately funded health insurance.
Because of issues with matching names on the LEIE, 9 of these 16 excluded individuals
became employed despite the safeguards the providers had in place. Providers used a
variety of safeguards to ensure that they do not employ excluded individuals, but
identified costs and resource burdens as challenges in executing those safeguards.
However, 7 percent of the providers enrolled in Medicaid MCEs did not check the
exclusion status of their employees; 4 percent of providers said they do not check their
employees’ exclusion status because they lack knowledge about exclusions.

Our prior study identified 11 excluded network providers out of approximately
277,000 providers checked; this study found 16 excluded individuals out of
approximately 249,000 individuals checked. In both studies, the network providers and
individuals we checked represent only the provider networks of 12 selected Medicaid
MCEs; additional excluded individuals may be employed by providers enrolled in the
other 650 Medicaid MCEs. Given the number of excluded providers identified in the
small number of MCEs examined, CMS may want to reinforce its guidance to MCEs on
their obligation to check—and to require their network providers to check—OIG’s LEIE
on a monthly basis to identify exclusions and reinstatements. Finally, CMS may want to
reiterate that providers are obligated to prevent use of Federal funds for payments to
excluded persons and entities, regardless of whether those persons are located by contract
staffing agencies or checked by other vendors.



22
     Two percent of providers did not indicate why they do not check the exclusion status of their employees.


Excluded Individuals Employed By Medicaid Managed Care Providers (OEI-07-09-00632)
Page 12 – Marilyn Tavenner


This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-07-09-00632 in all correspondence.




Excluded Individuals Employed By Medicaid Managed Care Providers (OEI-07-09-00632)
Page 13 – Marilyn Tavenner


Appendix A: Social Security Act Authorities Under Which the 16 Individuals
Employed by Sampled Providers Were Excluded
                                                                                                                 Number of Excluded
Occupation                                                       Social Security Act Authority
                                                                                                                         Individuals
                                      1128(b)(4) License Revocation/Suspension/Surrender                                                   3
Registered Nurse/Licensed
                                                1128(a)(2) Patient Abuse/Neglect Convictions                                               1
Practical Nurse
                                                      1128(a)(1) Program-Related Convictions                                               1

Personal Care                         1128(b)(4) License Revocation/Suspension/Surrender                                                   3
Attendant/Certified Nurse
Aide                                                  1128(a)(1) Program-Related Convictions                                               1

                                      1128(b)(4) License Revocation/Suspension/Surrender                                                   1

Nurse Supervisor                                1128(a)(2) Patient Abuse/Neglect Convictions                                               1

                                                      1128(a)(1) Program-Related Convictions                                               1

Chaplain                                              1128(a)(1) Program-Related Convictions                                               1

Clinical Technician                                   1128(a)(1) Program-Related Convictions                                               1

Collector (Business Office)              1128(a)(3) Felony Conviction for Health Care Fraud                                                1

Instrument Technician                           1128(a)(2) Patient Abuse/Neglect Convictions                                               1
Source: Office of Inspector General analysis of employee rosters, List of Excluded Individuals and Entities data, and legal authorities,
2012.




Excluded Individuals Employed By Medicaid Managed Care Providers (OEI-07-09-00632)
Page 14 – Marilyn Tavenner


Appendix B: Point Estimates, Sample Sizes, and Confidence Intervals
                                                                                                95-Percent Confidence
Estimate Description                                             Sample Size   Point Estimate
                                                                                                              Interval

Percentage of providers that indicated they used the List of
Excluded Individuals and Entities to check employees’                   467            78.1%             69.7%–85.1%
exclusion status
Percentage of providers that indicated they used the
Excluded Parties List System to check employees’ exclusion              467            51.2%             42.0%–60.4%
status
Percentage of providers that indicated they used the State
sanctions and licensure databases to check employees’                   467            44.4%             35.4%–53.7%
exclusion status
Percentage of providers that indicated they used the
Medicare Exclusions Database to check employees’                        467            32.4%             24.2%–41.5%
exclusion status
Percentage of providers that indicated they used the National
Practitioner Data Bank or Healthcare Integrity and Protection           467             2.2%               0.6%–5.9%
Data Bank to check employees’ exclusion status
Percentage of providers that check employees’ exclusion
                                                                        467            77.8%             69.4%–84.8%
status at hire plus doing any periodic check

Percentage of providers that check employees’ exclusion
                                                                        467            41.1%             32.3%–50.4%
status at hire plus doing monthly check

Percentage of providers that check employees’ exclusion
                                                                        467             6.0%              2.5%–11.8%
status at hire plus doing a quarterly check

Percentage of providers that check employees’ exclusion
                                                                        467            18.1%             11.8%–26.1%
status at hire plus doing an annual check
Percentage of providers that check employees’ exclusion
status at hire plus checking at a frequency other than                  467            15.4%              9.5%–23.0%
monthly, quarterly, or yearly
Percentage of providers that check employees’ exclusion
                                                                        467             8.6%              4.3%–15.0%
status at hire only

Percentage of providers that check employees’ exclusion
                                                                        467             6.8%              3.0%–12.8%
status periodically only

Percentage of providers that check employees’ exclusion
                                                                        467             0.9%              0.04%–4.4%
status monthly only

Percentage of providers that check employees’ exclusion
                                                                        467             1.7%               0.2%–5.9%
status quarterly only

Percentage of providers that check employees’ exclusion
                                                                        467             3.3%               0.9%–8.4%
status annually only
Percentage of providers that check employees’ exclusion
status only at a frequency other than monthly, quarterly, or            467             0.9%              0.03%–4.5%
yearly
Percentage of providers that do not check the exclusion
                                                                        467             6.8%              3.0%–12.8%
status of their employees

Percentage of providers that require employees to sign an
                                                                        467            41.7%             32.8%–50.9%
affidavit or attestation regarding their exclusion status

Percentage of providers that identified the costs and resource
                                                                        467            54.9%             45.6%–63.9%
burdens of conducting exclusions checks as challenges

Percentage of providers that identified lack of knowledge as
                                                                        467             4.2%               1.4%–9.5%
the reason they do not check employees’ exclusion status
                                                                                                continued on next page




Excluded Individuals Employed By Medicaid Managed Care Providers (OEI-07-09-00632)
Page 15 – Marilyn Tavenner


Appendix B: Point Estimates, Sample Sizes, and Confidence Intervals (Continued)

                                                                                                         95-Percent Confidence
Estimate Description                                                      Sample Size   Point Estimate
                                                                                                                       Interval

Percentage of providers that identified lack of knowledge and
lack of resources as the reason they do not check employees’                     467             0.8%              0.02%–4.6%
exclusion status
Percentage of providers that did not identify a reason why
                                                                                 467             1.7%               0.2%–5.9%
they do not check employees’ exclusion status
Source: Office of Inspector General analysis of provider surveys, 2012.




Excluded Individuals Employed By Medicaid Managed Care Providers (OEI-07-09-00632)
